March 14, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Update Processes for Xxxxxx Xxxxxxxxx xxx XXXXXXX
         (Report Number IS-AR-08-009)

This report presents the results of our self-initiated review of the update processes to
the Xxxxxx Xxxxxxxxx1 and Xxxxxxxx Xxxxxxxxxx Xxxxxx Xxxxxxx Xxxxxxxx x (Xx-
XXXX)2 systems (Project Number 07RG013IS000). Our objective was to evaluate the
controls over employee and contractor employment status updates to Xxxxxx
Xxxxxxxxx (Xxxxxxxx Xxxxxxxxx Xxxxxxxxxxx [XXX]) and XXXXXXX (xxxxxxxxx)
systems. If employment status data do not flow accurately from xxxxxx xxxxxxx xxxx
xxxxxx xxxxxxxxx xxx xxxxxxx, or if internal controls in these systems are not in place or
working properly, it could result in improper or unauthorized user access to information
systems.

                                             Background
The xXxxxxx system has become an integral part of the day-to-day operations of the
U.S. Postal Service. The system not only monitors who obtains access to various
Postal Service resources, it also automates the creation and maintenance of user
accounts. Its functionality provides efficiencies that allow for the elimination of the
Postal Service (PS) Form 1357, Request for Computer Access, and the associated
manual effort necessary to approve and create user accounts.

Employees and contractors use the xXxxxxx system to obtain automated access to
registered Postal Service XXX and mainframe systems.3 For example, entering a new
hire in the Xxxxx Xxxxxxx Xxxxxxxxxx Xxxxxx (XXXX) generates a PS Form 50,

1
  Xxxxxx xxxxxxxxx xx x xxxxxxxxx xxxxxx xxxx xxxxxx xxx xxxxxxxxxxxxxx xxxxxxxx xxxxxx xxxxxxxxx xxx xxxxxxx
Xxxxxxx xxxxxxx. Xx xxxxxx xx x xxxxxxx xxxxxxxxxx xxx xxxxxxxxx xxxx xxxxxxx xxx xxxx xxx xxxxxx xxxxxxxxxx
xxxxx xxxxxxxxxxxxxx (xxx xxx xxxxx xxx) xxx xxxxxxxxxxxxx (xxxx xxxxxxxxx xxx xxxxx xxx xxxxxx) xxxxxxxxx.
2
  XXXXXXX xx xxx xxxxxxxx xxxxxxxx xxxx xxx Xxxxxx xxxxxxx xxxx xx xxxxxxx xxxxxxxx xxxxxxxx xxx xxxxxxxxxx
xx x xxxxxxxxx xxxxxxxxxxx. Xxx Xxxxxx Xxxxxxx xxxxxxxxx xxxx xXxxxx™ XXXXXXX® xxxxxxx xxx.
3
  Xxxx xxxxxxxxx xxxxxxxxxxxx xxx xxx xxxxxxxxxx xx xxxxxxx, xxx xxxxxxxxxxxx xxx xxxxxxxxx xxxxx xxxxx.
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                        IS-AR-08-009



Notification of Personnel Action. xxxxxxx builds an employee profile for a new
employee from the PS Form 50 data transmitted from XXXX and assigns the employee
a universal identifier (UID).4 Then, bridging software extracts the employment data from
xxxxxxx and populates an XXX logon ID5 record in Xxxxxx Xxxxxxxxx. The logon ID
remains inactive in Xxxxxx Xxxxxxxxx until the manager approves access. Over
100,000 additions, deletions, and changes occur weekly to Xxxxxx Xxxxxxxxx through
xXxxxxx and the bridging software. Xxx Xxxxxxxx X xxx x xxxxxxxxx xxxxxxxxx xx xxxx
xxxx xxxx.

X xxxxxxxxxxx xx xxxxxx xxx xxxxxxxxx xxxxxxxxx xxxxx XXXXXXX xxxx xxxxxxx. Xxx
xxxxx xxxxxxxxxxxx xxx xxxxxxxxxx xx xXxxxxx, Xxxx Xxxxxxxxx Xxxxxxxx XXXXX
Xxxxxxxx xxxxxxx xxxx x xxxxx XX Xxxx xxxx xxx xxxxxxxxx xx xxxxxxxxxxx xxx
xxxxxxx xxxxxx xx xxx xxxxxxxxx. Xx xxx xxxx, xxx xxxxxxxxx xxxx xxxxxxx xxx
xxxxxxx xx xx xxxxxxxx xx xxx xxxxxxxxxxx xxxxxxx. XXX Xxxxxxxx xxxx xxxxxxx x
xxxxxxx xxxxxxx xxx xxxxxx xxx xxxxxxxxxxx xxxxxx. Xx xxx xxxxxxxxxxx xx
xxxxxxxxxx, XXX Xxxxxxxx xxxx x xxxxxx xx xxxxxxxxx xxxxxxxx xx xxxxxxxx xxx
xxxxxxx x xxxx xxxxxxx (xxxxxxxxxx XX Xxxx xxxx) xxxxxxx xXxxxxx xxx XXXXXXX.

To identify significant changes in employment data, XXX Xxxxxxxx routinely runs
automated jobs that provide daily reports. These jobs compare employee information
records from the payroll system Xxxxxxxx Xxxxxx Xxxx xxxx XXXXXXX xxxx. When
XXX Xxxxxxxx finds significant differences in employment information such as finance
number or occupation code changes, they send a notification requesting the user
provide a revised access request. Consistent with Handbook AS-805, Information
Security,6 if XXX Xxxxxxxx does not receive a new PS Form 1357 within a specified
time, they suspend and eventually delete the logonid.

xxxxxxx distinguishes a normal user from users who have different participant roles.7
For example, the manager role (MGR) uses features of the application to approve
access requests. If the user request comes from a contractor, a Contracting Officer’s
Representative must also approve. The Functional System Coordinator (FSC) role
validates requests for access to critical or sensitive8 applications, which requires an
additional approval step. The FSC can also revoke user access to all applications if the
manager does not. The FSC is also the application business owner. The Logon ID
Administrator has final request approval and activates the account for new users. The
requesting manager then receives notification of the activation and approval.


4
  Xxx XXX xx xXxxxxx xxxxxxx xx XXX xxxxx XX xx Xxxxxx XXXXXXXXX.
5
  Xxx xxxxxxxxxxxx, xx xxxxx xx “xxxxx XX” xx x xxxx xxxxxxx xx XXX xxx “xxxxxxx” xx x xxxx xxxxxxx xx XXXXXXX.
6
  According to Handbook AS-805, Information Security, March 2002 (updated with Postal Bulletin revisions through
November 26, 2006), Section 9-6.3, Suspending Logon IDs, and Section 9-6.5, Terminating Logon IDs.
7
  Participant roles have access to the xxxxxxx system, administration module, or utilities. Xxxxx xxxxx xxxxxxx xxx
xxxxxxx Xxxxxx Xxxxxxxxxxxxx, Xxxxxxxxxxx Xxxxxxxxx Xxxxxxxxxxxxxx, Xxxxxxxx Xxxxxxx Xxxxxxxxxxxxxx, XXX,
Xxxxx XX Xxxxxxxxxxxxx, Xxxxxxx, xxx Xxxxxxx Xxxxxxxx Xxxxxxx.
8
  Handbook AS-805, Section 3-3.2, Sensitivity and Criticality Category Independence, states “Sensitivity and criticality
are independent designations. All Postal Service information must be evaluated to determine both sensitivity and
criticality. Information with any criticality level may have any level of sensitivity designation and visa versa.”



                                                          2
                                               Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                 IS-AR-08-009



Several organizations manage or provide technical support for xxxxxxx. The Corporate
Information Security Office, as Executive Sponsor for xxxxxxx, provides oversight
including development, production, and maintenance. The Database Support Services
database administrators ensure Oracle database availability and performance, and
access control to the database. The Information Technology Engineering and
Architecture group manages the contractors supporting the xxxxxxx application
infrastructure and the bridging software. The contractor, XXxxxxxx xxxxxx xxxx
xxxxxxxxxxxxxxx, develops and maintains the xxxxxxx application software and the
bridging software to xxxxxx xxxxxxxxx, as well as the system documentation.

XXXX9 xxxxxxxxx xxxx xxxxx xxxxxxx, xxxxxxxxx xxxxxxxxxxxx xxxxxxxxxx xxxx. xx
xxxxxxxx xxx xxxxxxxxx xx xxx xxxxxx xxxxxx xxxxxxx xxxxxxxxxxxx, xxxxxxxxx
xxxxxxxxxxxxxx xxxxx xxxxxxxxxxxxxxxxxxxx, xxxxxxxxx (xxxxxxxxxxxxxxxxx), xxx
xxxxxxx (xxxxxxxxx). XXXX xxxxxxxxxxx xxxxxx xx xxxxx xxxxxxxxxx xx xxxxxxx. xx
xxxxxxx xx xxxx xxxxx xxxxxxx, xx xx xxxxxxx xx xxxxxxxx xxxxxxxx xxxxxxxxxxxxx.
xxx xxxxxxx, xx xxxxx xxxxxxxx xxxxxxx xx xxxx xxxxxxx, xxx xxxx xxxxxxx xx
xxxxxxxxxxx, xxxxxxxxxxx, xxx xxxxxx. xxxxxxxxxxxx, xx xxx xxxxx xxxxxxx-xxxxxxxx
xxxxxxxxxxxx xxxxxxxxxxx, xxxxxxxxx xxx xxxxx xxx xxx xxxxx. xxx xxxxxxx, xxx
xxxxxxx (xxxxxxxxxx) xxxxxxxx xxx “xxxxx xxxxxxxx,” xxx xxx xxxxxxxx xxxxxxxx xxx
xxxxxxxxx.” xx xxx xxxx xxxxx xx xxxxxxxx xxxxxxxx xx x “xxxxxx xxxxxxxx,” xxxxxxxxx
xxx xxxxx xxx xxx xxxxx.

xx currently tracks rural carrier and Postal Inspection Service employees assigned to
detail positions. Because these temporary employment changes require increased
compensation, XXXX generates a PS Form 50. This situation applies primarily to rural
carriers who work in detail positions for more than 30 days. Besides tracking
employees assigned to temporary positions using the PS Form 50, the Postal Service
also uses PS Form 1723, Assignment Order. Payroll personnel use the PS Form 1723
to keep a record of executive and administrative service and bargaining unit employees
assigned to detail positions at a higher level. Employees who work in higher level detail
positions and meet certain conditions become eligible for higher compensation. xx
currently does not transmit PS Form 1723 data to xxxxxxx but could in the future if
management changed business practices for employees assigned to detail positions.

                           Objective, Scope, and Methodology
See Appendix B for objective, scope, and methodology details.

                                      Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

9
 xxxx xxxxxx xx xxx xxxx xxxxxxxxxxxxx xxxxxxxxxxxxxx xx xxx xxxxx xxxxxxxxx xxxxxx xx xxx xxx. xxx xxxxxx xxx
xxxxxxx, xxxxxxxxxxxx, xxx xxxxxxxx xx xxxx xxxxxxxxxx. xx xx xxxxxxxxx xxxx, xxxxx xxxxxxxxx xxxxxxxx xxx
xxxxxxxxx xxxxx xxxxx xxxxx xxx xxxxxxxxxx xxxxxxxxxx xxxxxx xx xxxx.



                                                       3
                                            Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                            IS-AR-08-009



                                             Results
The automated and manual processes accurately extracted employment status
changes that were transmitted xx xxxxxx xxxxxxxxx xxx xxxxxxx; however,
management needs to improve controls to better separate duties for users who can
update xxxx xxx xxxx xxx xxxxxxx xxxxxxx. Additionally, management needs to
evaluate the business processes that affect employee status updates xxxxxxx xxxx and
xxxxxxx to adequately separate duties between managers and users in xxxxxxx.
Management also needs to evaluate the business processes xx xxxx to allow xxxxxxx to
better manage employee status changes, especially detail assignments that affect user
access to critical or sensitive systems. Finally, management needs to improve xxxxxxx
system documentation.

Xxxxxxxxxx xxx xxxxxxxxxx xx xxxx xx xx xxxxxxxx xxxxxxxxxxxx xx xxxxxxx, xxxxxxx
xxx xxxxxxxx, xxx xxxx xx xxxxx xxxxxx xxxxxxxxxxxx xxxxxx xx xxxxxxxxxxxxx xxxxxxx
xx xxxx. We made four recommendations to address these issues, including a joint
recommendation to Employee Resource Management and Information Technology
Operations to review the manager roles xx xxxx and xxxxxxx to determine how to better
integrate the roles. We also recommended that appropriate Postal Service
organizational units establish requirements for tracking employees assigned to detail
positions, implement a planned enhancement to xxxxxxx to ensure reviews take place
when significant job assignment changes occur, and keep system documentation
updated. While management did not agree with some facts in the findings leading up to
recommendations 1 and 2, they recognized that the conditions were valid and agreed to
correct them. Management fully agreed with recommendations 3 and 4. Management’s
comments and our evaluation of these comments are included in the report.

Separation of Duties

Xxx Xxxxxxx xxxxxx xxx xxxx xxxxxxxx xxxxxxxxxxxxxx xxxxxxx xxxxx xx xxxxxx xxxx
xxxxxxx. xxxx xxxxxxxx xxxxxxx xxx xxxxxxx xxx xxx xxxx xx xxxxxxxxx xx xxxxxxxx
xxxxxxxx xxxx xxxxxxx xxxx. xxxx, xxxxxxx xxxxxxx xxxxx xxxx xxx xxx xxxx xx xxxxx
xx xxxxxx xxxxxx xx xxxxx xxx xxxxx xxxxx xxxxxxxxxxx. xxxx xxxxxxxx xxxxxxx
xxxxxxx xxxxxxxxxx xxx xxxxxxxx xx xxxxxxx xxxxxx xx xxx xxxxxx, xxx xxxxxxx
xxxxxxxxxxxxx xxxx xx xxxxxxx xxxx xxxxx xxx xxxxxxxxxxxx. Postal Service policy
(policy) states that individuals’ functional roles should be separate and their access
should be limited to a minimum level. Separation of duties for application access is
essential to ensure personnel have appropriate access levels to corporate information.

Security Interface for the Payroll System and the xxxxx xxxxxxx xxxxxxxxxx xxxxxx

xxx xxxxxxx xxxxxx xxx xxxx xxxxxxxxxxxxxx xxx xxx xxxxxxx xxxxx xxxx xxxxxxxx xxxx
xxxxxxx xxxxxxx xxxxxxx xxx xxxx xxxx xxxxxxxx xxxxxxxx xxxxxxx xxxx xxxx xxx
xxxxxxxxxx xx xxxxxxxxxxx xxxx xxxxxx xxxxxxxxx xxxx xxxx xxxxx. xxxxx xxxx xxxxxx
xxxxxxxxxx xx xxx xxxxxx xxxxxx xx xxxxxxxxxx xx “xxxx xxxx” xxxxxxxxxx xx xxx xxxxx



                                                   4
                                        Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                     IS-AR-08-009



xxxxxx. xxxxxxxxxx xxxxxxxx xxxxxxxxx x xxxxxxxx xxxxxx xxxxxxx xx xxxxxxx xx
xxxxxxxxx xx xxxxxxxx xxxxxxxx xxxx xxxxxxx xxxxxxx. xxxx xxxxxxxx xx xxxxx
xxxxxxxxxxxx xxxx xxxxxx xx xxxxx xxxx. xxxxxxx xxxx xxxxxxxxx, xxxxx xx x xxxx xxxx
xxxxx xxxxx xxxxxx xxxxxxxxx xx xxxxxxxxxx xxxxxxxxxxxx xx xxx xxxxxxx xxx xxxxx
xxxxxxxx xxxxxxx.

We are not providing a recommendation for this issue since management has an action
in process to correct this condition.

Separating the MGR Role in xxxxxxx

xxxxxx xxxxxxx xxxxxxxx xxxxxxxxx xxxx xxxx xxxxxxxxxxx xxxxxxx xxxxxxx xxxxxxxxx
xxxxxx xxx xxx xxxx xxxxx. xx xxxxxxx xxxx xxxxxxx, xxxxxxxxxx xxxxxxxxxxx x
xxxxxxxxxx xxxxxxx xx xxxxxxx xxxx xxxxxx xx xxx xxxxxxxx xx xx xxxxxxxxxxx xxxxxx
xx xxxxxx xx xxxxxx x xxxxxxxxx xxxxxxxx, xx xxxx xx xxxxxx x xxxxxx xxxxxx xx xxx
xxxxxx.10 xxxxxxxxxxxxx xx x xxxxxxxxxx xxxxxxx, xxxxxxx xxxxxxx x xxx xx xxx xxxx
xxxxxxx xxxxxxxxxxxx xx xxx xxxxxxxx xxxxx xxxxxxxxx xxxxx xxxxxxx xxxxxxxxx xxx
xxxxxxxxx xxxxxxx

Xxxxxxx, xxxxxxx xxxxxx xxxxx xx xxxxxx xxxxx xxxxxxx xxxxx xxxxxxx xxxx xx xxxxx x
xxxxxxx xxx xxxxxx xx xxxxxx xxxx xxx xxx xxxx. xxxx xxxxxxxxx xxxxxxxx xxx
xxxxxxxxxxx xxxx xxxxxxxxxxx xxxxx xxxxxx xxxxxx xx xxxxxxxxx xx xxxxxxxx
xxxxxxxxxxx xxxxxxx xxxx xxxxxx xxx xx xxxxxxxxxx xx xxxxxx. xxxxxxxxxxxx xxxxxx
xxxxxxx xxx xxxxxx xxxxxxx xx xxxxxxxxx xxxxxxxxxxxx, xxxxxxxxxx, xx xxxxxxxxxxx xx
xxxxxxxxx xxxxxxxxxxx. xx xxxxxxxx xxxxxxx xxxxxxx xxx xxxxxxxxxx xxxx xxx xx
xxxxxx xxx,xxx xxxxxx xxxxx, xxxxxx xxxxxx xxx xxx xxx xxxx xxx xxxxx xxxxxxx xxxxxx
xxxxxx xxxx.

xxxx xxxxxxxx xxxxxxx xxx xxxxxx xxxxxxx xxxxxxxxxx xxxxxxxx xxx xxxxxx xx xxxxxxx
xxxxxx xxx x xxxxxx xxxxxx, xxx xxxxxxx xxxxxxxxxxxxx xxxx xx xxxxxxx xxxx
xxxxxxxxxxxx. xxxxxxxxxxxx, xxxxxxx xxx xxx xxxx xx xxxxxxxxxxxxxx xxxxxxxxx xxxx
xxxxx xxxxxxxxxxxx xxxxx xxxxxx xxxxxxxxx xx xxxxx xxxxxxxx xx xxxxx xxxxxxxxxx
xxxxxxxx. xxxxxxxx, xxxx xxx xxx xxxx xxx xxxxxxxxxxx xxxxxxxxx xx xxxx xxxxxxx-
xxxxxxxx xxxxxx xxx xxx xxxxx xx xxxxxxxxxx xxxxxxx xxxxxxxxxx xxxxxx xxxxxxx xxxx
xxxxx xx xxxxxxxxx xxx xxxxxxx xx xxxxxxxx xxxx xxxxxxxx. xxxxxxxxxxxx xxxxxx
xxxxxxx xxx xxxxxx xxxxxxx xx xxxxxxxxx xxxxxxxxxxxx, xxxxxxxxxx, xx xxxxxxxxxxx xx
xxxxxxxxx xxxxxxxxxxx. xx xxxxxxxx xxx xxxxxxxx xxxxxxxxx xx xxxxxx xxxx xxxx xxx
xxxxxxx, xxxxxxx xxxxx xxxxxxx xxx xxxxxxxx xx xxxxx xxxxxxx xx xxxxxxxx xxx xx
xxxxxxxxxx xxxx xxxxxx xxxx xx xxxxxxxxxx xxxxxxxxxx xxxxxx xxxxxxx.

Policy states that access to information resources must be specific to individuals’ roles
and responsibilities, and separation of duties and responsibilities will be considered
when defining roles.11 Additionally, personnel should only have access to sensitive and
10
     According to a system design document, the FSC must provide a rationale for denying a request.
11
     Handbook AS-805, Section 9-4.1.3, Separation of Duties.



                                                           5
                                                Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                         IS-AR-08-009



critical information resources based on the minimum level of system functionality they
need to perform their duties.12

The Corporate IT Portfolio organization formed a group13 to help the Postal Service
comply with Sarbanes-Oxley Act of 2002 (SOX) business requirements. We reviewed
three security enhancements14 the group plans to implement in xxxxxxx. For example,
when an employee requests a change in the assigned manager, the former manager
and the new manager must approve this change. Management also plans to implement
a process where the MGR or FSC performs a bi-annual review of user access to
applications. xxxxxxxxxxxxx xxxx xxxxxxxxx xxxxxx xxxxxxx-xxxxxxxx xxxxxxxxxxxxx
xxx xxx xxxxxx xxxxxxx xxxxxxxxx. xx xxxxxxx xxxxxxxxxx xxxxxx xxxxxxxx xxxx
xxxxxxxxxx xx xxxxxxx xxx xxxxxxxxxx xx xxxxxx xxxxxxxx xx xxxxx xxx xxx xxx xxxx.
xxxx xxxx xxxxxxx xxxxxxxxxx xx xxxxxx xxx xxxxx xxx xxx xxxx xxx “xxxxx xxxxxxxx”
xx xxxxxxx xxx xxxx, xxxxxxxxxxxx.

Based on the planned SOX security enhancements, we are not providing a
recommendation to make any changes to xxxxxxx.

Recommendation

xx xxxxxxxxx xxx xxxx xxxxxxxxx, xxxxxxxx xxxxxxxx xxxxxxxxxx, xxxxxxxxxx xxxx xxx
xxxx xxxxxxxxx, xxxxxxxxxxx xxxxxxxxxx xxxxxxxxxx, xx:

     1. Xxxxxx xxx xxxxxxx xxxxx xxxxxxx xx xxx xxxxx xxxxxxx xxxxxxxxxx xxxxxx xxx
        xxxxxxx xx xxxxxxxxx xxx xxxxx xxxxx xxx xx xxxxxxxxxx, xx xxx xxxxx xxxxxxx
        xxxxxxxxxx xxxxxx xxx xxxx xxxxxxxx xxx xxxxxx xxxxxxxxxx xxxxxx xxxx xx
        xxxxxxx.

Management’s Comments

xxxxxxxxxx xxxxxxxxx xxxx xxxxx xxx x xxxxxxx xxxx xxx xxxx xx xxxx xxxxxxx xxxxxxx
xxx xxxxxxxxx xxxxxxxxx. xxxxxxx, xxxx xxxxxx xx xxxx xxxxxxxxxx xxxxxx xx xxxxxxx
xxxxx xxxx xxxxxxxxxxx xxx xxxxxxx xx xxxxxxx xx xxx xxxxxxxxx xxxxx. xxxxxxxxxx
xxxxxx xxxx xxx xxxxxxxxx xxxxxxxx, xxxxx xxxxxxx xxxxxxxxxx, xxxxx xxxx xxxx xxx
xxxxxxxx xx xxxxxxx xxx xxxxxxxxxxx xxxxxxxxxx xx xxxxxxxxx x xxxxxxxxx xxxxxxxx
xxxxxxx xxxxx xxxx xxx xxxxxxxxxx xxxxxxx xxxxxxx xxx xxx xxxxx xxxxxxxxxx
xxxxxxxxxx xxxxxxx xxxx xxxxxxx xxx xxxxxx. xxxxxxxxxx xxxxxxxx xxx xx, xxxx, xx
xxxxxxxx xxxx xxxxxxxx. xxxxxxxxxxxx xxxxxxxx, xx xxxxx xxxxxxxx, xxx xxxxxxxx xx
xxxxxxxx x.

12
   Handbook AS-805, Section 9-4.1.4, Least Privilege.
13
   The IT SOX/Postal Reform Portfolio group xxxxxxxxxx xx xxxxxxxxxxxx xx xxxxxxx, as part of the “FY08 SOX
Security Enhancements” project. The recently signed Postal Accountability and Enhancement Act of 2006 includes a
requirement that the Postal Service be compliant with the SOX by the time it issues its first annual report in late 2010
(for FY 2010).
14
   xxxx x: xxxxxxxxxxx xxxxxxxx xxxxxxx xxx xxx xx xxxxxx xxxx xxxxxx; xxxx x: xxxxxxxxxxx xxxxxxxxx xxx xxxxxxxx
xx xxx xx; xxx xxxx xx: xxxxx xxxxxx.



                                                          6
                                               Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                              IS-AR-08-009




Evaluation of Management’s Comments

Although management disagreed with some facts in the finding, their response was in
agreement with the recommendation’s intent, and their comments are responsive. The
actions planned or taken should correct the issues identified in the finding.

xxxxxxx Tracking for Employees Assigned to Detail Positions

Management did not design xxxxxxx to track employees assigned to detail positions.
Additionally, management did not implement xxxx to take full advantage of tracking
detail positions. The IT SOX/Postal Reform group believes they can implement a
process (with the assistance of Human Resources personnel) where employment
information changes in xxxx activate a notification to xxxxxxx managers to review the
affected employees. Policy requires management to base access on the security
principles of least privilege and the need to know. Tracking employees in detail
assignments can prevent inappropriate access to applications because users who no
longer require access are identified and their access needs can be reviewed and
modified.

xxxxxxx did not have the full capability to track employees assigned to detail positions.
xxxxxxxx xxxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxx xx xxxxxxx xx xxxx xxxxxx xxxxxxxx
xxxxxxxxxxx xxx xxx xxxxxx xxxxxxxxxx, xxxx xxxxxxxxxx xxxx xxxxxxx xxxxxxxx xx
xxxxxxxxx xxxx xxxx xx xxxxxxxxxxx xxxxxxx xx xxxxxxxxxx xxxxxx. xxxxxxxxxxxx,
xxxxxxxxxx xxx xxx xxxxxxxxx xxxx xx xxxx xxxx xxxxxxxxx xx xxxxxxxx xxxx xxxxxx
xxx xxxxxxxx xxxxxx xxxxxxxxx. xxxx currently tracks 259 employees assigned to
formal detail positions; however, according to management, over 23,000 employees
work in detail assignments.

xxxx xxxxxxxx xxxxxxx xxx xxxxxx xxxxxxx xxxxxxxxxx xxxxxxxx xxx xxxxxx xx xxxxxxx
xxxxxx xx x xxxxxx xxxxxx, xxx xxxxxxx xxxxxxxxxxxxx xxxx xx xxxxxxx xxxx
xxxxxxxxxxxx. xxxxxxxxxxxx, xxxx xxx xxx xxxx xxx xxxxxxxxx xxxxxxxxx xx xxxx xxx
xxxxxxxxxxx xxxxxxxx xxxxxx xxxxxxxxxxx xx xxxxxxx, xxx xxxxxxx xxxxxx xxx xxx
xxxxx xx xxxxxxx xxxxxxxxxx xxxxxx xxxxxxx xx xxxxxxx.

Without adequate controls to track employees assigned to detail positions, individuals
may retain access to sensitive or critical information resources that they are not
authorized to access after the detail ends. Preventing such unauthorized access
eliminates potential modification, disclosure, or destruction of corporate information.

Policy states that management will grant access to sensitive and critical information
resources based on providing personnel with the minimum level of system functionality
needed to perform their duties.15 Additionally, management must limit access to

15
     Handbook AS-805, Section 9-4.1.4, Least Privilege.



                                                          7
                                               Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                              IS-AR-08-009



sensitive information resources to personnel who need to know the information to
perform their duties.16

The IT SOX/Postal Reform group believes they can implement a process (with the
assistance of Human Resources personnel) where employment information changes in
xxxx activate a notification to xxxxxxx managers to review the affected employees. For
example, if any changes occur (duty station, finance number, occupation code, and
employment status), xxxx can pass them overnight to xxxxxxx, which will generate
emails to the appropriate managers. We believe management should leverage this
capability in xxxx xxx xxxxxxx so that unneeded access does not continue after
termination of a detail assignment.

Recommendation

We recommend the Vice President, Employee Resource Management, coordinate with
the Vice President, Information Technology Operations, to:

       2. Review the capabilities and establish requirements in the xxxxx xxxxxxx
          xxxxxxxxxx xxxxxx for tracking employees assigned to detail positions and how
          to pass timely and accurate data to xxxxxxx.

Management’s Comments

Management disagreed that there was an issue with data that is passed xxxxxxx xx
xxxxxxx for formal detail assignments where PS Form 50s were generated.
Subsequent to receipt of the formal response, we received information to clarify this
response. Management stated that the Executive Director, Xxxxx Xxxxxxx Xxxxxxxxxx,
will work with Information Technology xx xxxxxxx xxx x xxxx xxxxxxxx xxxxxx xxxxxxx
xx xxxx xxx xxxxxx xxx xxxxxxx xxxxxxx xx xxxxx xxxxxx xxxxxxx. They targeted this
action for completion by May 30, 2008.

Management additionally agreed that data for informal detail positions, not resulting in
PS Form 50 activity, were not passed through the system to xxxxxxx. Management
stated that the Executive Director, xxxxx xxxxxxx xxxxxxxxxx, would work with the
managers of Employee Resource Management and Information Technology to develop
requirements for tracking data for informal detail positions. Management targeted
December 31, 2008, to complete this activity.

Evaluation of Management’s Comments

Management disagreed that there was an issue with data passed to the xxxxxxx
system. However, their response was in agreement with the recommendation’s intent,


16
     Handbook AS-805, Section 9-4.1.2, Need to Know.



                                                        8
                                             Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                   IS-AR-08-009



and their comments are responsive. The actions planned or taken should correct the
issues identified in the finding.

Evaluation of xxx User Access

Management did not reevaluate xxx logon ID access when employees were reassigned.
This occurred because management did not have any procedures in place to notify
managers when employment changes occurred and when access should be
reevaluated. Policy states that all managers have the responsibility of revoking access
when it is no longer required. Reevaluating access when an employee’s job
responsibilities change helps ensure employees have access to only the data and
systems needed to perform their work.

Employment changes affecting occupation code, finance number, or employment status
could result in different access requirements to information systems. Except for
terminations, xxxxxxx has no functionality to notify managers when employment
changes occur and when access should be reevaluated. Managers or users can initiate
access changes, but the FSCs have the ultimate responsibility for approving the
appropriate level of access.

In the mainframe environment, xxx xxxxxxxx used programs to compare employee
information records xxxx xxx xxxxxxx xxxxxx xxxxxxxx xxxxxx xxxx xxxx xxxxxxx xxxx.
xx xxx xxxxxxxx xxxx xxx xxxxxxx x xxx xx xxxx xxxx xxxxxx x xxxxxxxxx xxxx, xxxx
xxxxxxx xxx xxxxxxxxxx xxxxxx xxx xxxxxxx.

Policy states that all managers must immediately revoke access to information
resources for personnel who no longer require it because of a change in job
responsibilities, transfer, or termination.17

The IT SOX/Postal Reform group identified three SOX security enhancements18
beginning in mid-2008 that will address this issue. Based on changes in employment
information, appropriate xxxxxxx managers will receive timely notification to review
these changes and determine if current employee access is required.

Recommendation

We recommend the Vice President, Information Technology Operations, direct the
Manager, Corporate Information Security Office, to:

     3. Develop and implement the planned xxxxxxx enhancement that will ensure
        access reviews take place when significant changes occur in job assignments.


17
  Handbook AS-805, Section 9-4.2.7, Revoking Access.
18
  xxxx x: xxxxxx xxxx xxxxxx; xxxx xx: xxxxxxxx xxxxxx xxxxxxxxx xxxxxxx; xxx xxxx xx: xxxxx xxxxxxxxxxxx xx
xxxxxxxx xxx xxxxx.



                                                        9
                                             Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                            IS-AR-08-009



Management’s Comments

Management agreed with the recommendation. Management stated that, as part of the
Sarbanes-Oxley effort, they are currently programming xxxxxxx to alert managers to
review system access when an employee’s job status changes. Management targeted
May 30, 2008, to complete this activity.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and the actions
planned or taken should correct the issues identified in the finding.

System Documentation for xxxxxxx

The contractor did not maintain up-to-date system documentation for xxxxxxx. Policy
states the principle of configuration management includes the responsibility of
adequately maintaining system documentation.19 Current system documentation is
important for tracking system changes and ensuring the system is operating as
designed.

xxx xxxxxx xxxxxxxxxxxxx xxxx xx xxxxxxxx xxx xxxxxxx xxx xxx xx xxxx. xx xxxxx xx
xxxxxxx xxxxxxxx xx xxx xxxxxxx xxxxxxxx xxxxxx, xx xxxxxx xx xxxx xxxxxxxxx xxxxxx
xxxx xx xxxxxxx xxxx. xxx xxxxxxx, xxx xxxxxxxxx xxxx xxxxxxxxx xxxxx xxxxxx xxx
xxxxxx xxxx xxx xx xxxx xxx xxxxxxxxx xx xx xxxxxxx. xxxxxxxxxxxx, xxxxx xxxxxxxxx
xxxx xx x xxxxxxxx xxxxxx xxx x xxxxxx xxxx xxxxx xxx xxx xxxx xxx xxxxxxx xxxxxxx.
xxxx xxxxxxxx xxxxxxx xxx xxxxxxxxx xx xxxx xxx xxx xxxxxxx xxxx xxx xxxxxxxxxx
xxxxxx xxxxxxx xxxxxx xxxxxxxxxxxxx. xxx xx xxxxxxxxxx xxxxxx xxxxx xxx xx
xxxxxxxxxxx xxxxxxx xxx xxxxxxxx xx xxxxxxx xxxx xxxxxxxx.

Good configuration management provides integrity and traceability to software
throughout the change life cycle. As a best practice, keeping system documentation
current is important for tracking system changes and assuring the system is operating
as designed.

Recommendation

We recommend the Vice President, Information Technology Operations, direct the
Manager, Corporate Information Security Office, to:

     4. Review and update system documentation for xxxxxxx, and implement a process
        to ensure system documentation is kept current in the future.



19
 Management Instruction AS-850-2002-10, Information Technology Change and Configuration Management,
Overview section, August 22, 2002.



                                                   10
                                         Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                           IS-AR-08-009



Management’s Comments

Management agreed with the recommendation. Management stated that, as part of the
Sarbanes-Oxley enhancements to xxxxxxx, they will ensure that documentation is kept
up-to-date, including any required changes to documentation due to system
enhancement or maintenance. Management targeted June 30, 2008, to complete these
activities.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and the actions
planned or taken should correct the issues identified in the finding.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendations
1 through 3 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary Rippie, Director,
Information Systems, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI



Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    H. Glen Walker
    Harold E. Stark
    John P. Byrne
    Joseph J. Gabris
    Gregory “Dean” Larrabee
    Michael E. Goldman
    Larry V. Goodman
    Jerry M. McClure
    Steven W. Monteith
    Nancy M. Laich
    Katherine S. Banks


                                                  11
                                        Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                 IS-AR-08-009



              APPENDIX A. EMPLOYMENT STATUS DATA FLOW




                                                Redacted




xxxx:
xxx xxxxxxxxxxxx xxxxx xxxxxxxxxx xxx xxxxxxx xxxx xxxx xx xxx xxxx xxx xxxx. xxx xxxxxxx xxxxxxxx xxxxxxx xx
xxxx (xxx xxxxxxx) xxxxxx xxx xxx xx xxxxxxxxxxx xxxxxxx xx xx xxxxx xxxxxxxxx. xxx xxxx xxxxxxxxx xx xxxxxxx
xxxx xxx xx xxxxxxxxxxx xxx xxxxxxxxx xxxxx xxx xxxxxxx xxxx xxxxxxxx xxxxxxx.




                                                      12
                                            Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                                                 IS-AR-08-009



         APPENDIX B. OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this audit was to evaluate the controls over employee and contractor
employment status updates to the xxxxxx xxxxxxxxx (xxx) xxx xxxxxxx (xxxxxxxxx)
xxxxxxx.

We conducted this audit at the Information Technology Service Center in Raleigh,
North Carolina; the Information Technology and Accounting Service Center in Eagan,
Minnesota; and at xxxxxxxx xxxxxx xxxx xxxxxxxxx, xxx., a contractor in xxxxxxxxxx
xxxxxxxx. Specifically, we worked with managers in the following functional areas: IT
Engineering & Architecture (xxxxxx xxx xxxxxxxx xxxxxxxxxx xxxxx20xxx xxxxxxxxx
xxxxxxxx xxxxx21xx xxxxxxxxxx xxxxxxxx xxxxxxx xxxxxxxxx xxxxxx (xxxx); xxxx
xxxxxxxxx xxxxxxxx xxxxxxxx (xxxxxxx); xxx xxxxxxxxxx xxxxxxx xxx xxxxxxx, xxxxxxxx
xxxxxx

To accomplish this objective, we interviewed key managers to identify the information
systems that provide employment status data to xxxxxx xxxxxxxxx xxx xxxxxxx. We
also identified the processes that passed employment hiring, termination, and change
(PS Form 50) data from xxxx xx xxxxxx xxxxxxxxx and from the xxxxxxx xxxxxx
xxxxxxxx xxxxxx xxxx xx xxxxxxxx Furthermore, we identified internal controls (such as
participant roles) in xxxxxxx to verify management had adequately separated the duties
of employees assigned these roles.

We reviewed manual and automated procedures that managers used to track employee
status changes. Additionally, we identified manual and automated processes that allow
users to gain access to the xxx and mainframe environments. Finally, to determine if
the Postal Service had plans to make major changes to any of the systems providing
employment status data, we reviewed a document22 highlighting 20 planned security
enhancements to xxxxxxx. The IT SOX Postal Report Portfolio Organization identified
these enhancements to comply with SOX business requirements.

To determine the number of active employees in xxxxxxx, we used automated tools and
analyzed about 1.3 million user records xxxx xxx “xxxxx” xxxxxx23 We identified active
users based on the values in the user status and employee status fields.24 xx
xxxxxxxxxx xxx xxxxxx xx xxxxx xxxx xxx xxx xxxx xxxxx xx xxxxxxxx xxxxxxx xxxx xxx
xxxxxxxxxxxxxxxxx” xxxxx xx xxx xxxx xx xxxxxxxxxx xxxxxxxxxx xxxxxx xxxxxx25 We
tested the xxxxx xxxxx for duplicate records and found none.

20
   xxx xxxxxxxxxxxxxxx xxxxxxxxxx xxxxx xx xxx xxxxxxx xxxxxxx xxx xxx xxxxxxx xxxxxx, xx xxxxxxxx xxxxxxxxx
xxxxxxxx xxxxxx xxxxxxx xxxxx xxxxxx xxxx xxx xxxxxxxxxxx xxxxxxx xxx xxx xxxxxxx xxxxxx xx xxxxxx xxxxxxx
xxxxxxxxx xxxxxxxxx.
21
   xxx xxxxxxxxx xxxxxxxx xxxxx xxxxxxxxx xxx xxxxxxxxxxxx xxx xxxxxxxxxxx xxx xxxxxx xxxxxxxx xxxxxxxxxxx.
22
   “xxxxxxx FY08 SOX Security Enhancements“ was dated October 2007.
23
   We obtained authorization to gain access to the xxxxx xxxxx and downloaded records on October 21, 2007.
24
   xx xxxxxxxxxx xxxxxx xxxxx xxxxx xxxxxxxxxxxxxxxxxxx xxxxxx xxxxxxx “x” (xxxxxx xxxxxxxx) xxx
xxxxxxxxxxxxxxxxxxx xxxxx xxxxxx xxxxxxx “x” (xxxxxx).
25
   xx xxxxxxxxxx xxxxx xxxx xxx xxx xxxx xxxxx xxx xxxxxxx xxxxx xxxxxx xxxxxxx xxxxxx



                                                      13
                                            Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                            IS-AR-08-009




We conducted this audit from August 2007 through March 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We used manual and automated
techniques to analyze the computer-processed data. Based on the results of these
tests and assessments, we generally concluded the data were sufficient and reliable to
use in meeting the objective.




                                                  14
                                        Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                IS-AR-08-009



                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                  15
                                        Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                IS-AR-08-009




                                                  16
                                        Restricted Information
Update Processes for xxxxxx xxxxxxxxx xxx xxxxxxx                IS-AR-08-009




                                                  17
                                        Restricted Information
